Department of Health & Human Services
            OFFICE OF
       INSPECTOR GENERAL




MEDICAID BRAND-NAME DRUGS:
  RISING PRICES ARE OFFSET
 BY MANUFACTURER REBATES




                   Daniel R. Levinson
                    Inspector General

                     August 2011
                    OEI-03-10-00260
E   X
       EE CX UE TC I U V T E I VS EU M S M U A MR MY A R Y


                      OBJECTIVE
                      To assess changes in prices for brand-name prescription drugs since
                      2005 and their potential financial impact on the Medicaid program.


                      BACKGROUND
                      According to a series of reports issued by AARP, published prices for the
                      most widely used brand-name prescription drugs have risen
                      significantly since 2002, substantially outpacing the inflation rate.
                      Senator Bill Nelson expressed concern over the reported price increases
                      and requested that the Office of Inspector General (OIG) review drug
                      pricing changes and their impact on Government health care programs,
                      such as Medicaid. To address Senator Nelson’s concerns, this study
                      looked beyond reported increases in published prices to examine
                      changes in transaction-based drug prices and Medicaid payments.
                      In 2009, Medicaid spent approximately $26 billion for prescription
                      drugs (not including rebates), with brand-name drugs generally
                      accounting for about 80 percent of this total. For Federal payment to be
                      available for covered outpatient drugs under Medicaid, drug
                      manufacturers must, among other things, enter into rebate agreements
                      with the Secretary of Health & Human Services, report quarterly
                      average manufacturer prices (AMP) to the Centers for Medicare
                      & Medicaid Services (CMS) for each of their covered outpatient drugs,
                      and pay quarterly rebates to State Medicaid agencies. The rebate
                      amount for any given drug generally depends on the quarterly AMP
                      submitted by the manufacturer, as well as whether the drug is brand-
                      name or generic. Manufacturers pay a higher rebate for brand-name
                      drugs than for generic drugs.
                      For this study, we selected all brand-name drugs used by Medicaid
                      beneficiaries in 2009 and calculated median changes in their wholesale
                      acquisition costs (WAC—the published prices examined by AARP),
                      AMPs, Medicaid payment amounts, and rebate-adjusted Medicaid
                      payment amounts during the 5-year period between the first quarter of
                      2005 and the first quarter of 2010.
                      We then examined these changes in relation to the consumer price
                      index, which measures the inflation rate for a market basket of
                      consumer goods and services. We also analyzed a subset of high-dollar
                      brand-name drugs used by Medicaid beneficiaries in 2009.


    OEI-03-10-00260   RISING PRICES   FOR   MEDICAID BRAND-NAME DRUGS ARE OFFSET   BY   R E B AT E S   i
E   X   E C     U T   I    V   E          S     U M     M   A   R Y



                          FINDINGS
                          Overall, prices and payment amounts for Medicaid brand-name
                          drugs increased at about three times the inflation rate between
                          2005 and 2010. Over this 5-year period, WACs, AMPs, and Medicaid
                          payment amounts increased between 34 and 40 percent at the median
                          while the inflation rate increased only 13 percent. In addition to
                          outpacing inflation overall, increases in WACs, AMPs, and Medicaid
                          payment amounts for brand-name drugs outpaced the inflation rate in
                          each of the 5 years under review. For the 50 Medicaid brand-name
                          drugs with the highest expenditures, total median increases in prices
                          and payment amounts not only outpaced the inflation rate, but also
                          outpaced total median increases in prices and payment amounts for
                          brand-name drugs as a whole.
                          Significant increases in prices and payment amounts for
                          brand-name drugs were offset by savings generated from the
                          Medicaid drug rebate program. We found that when the per-unit
                          payment amounts for all Medicaid brand-name drugs were adjusted
                          to account for the rebates paid to States by manufacturers, the
                          per-unit net cost to Medicaid increased at a much lower rate than
                          other points of comparison between 2005 and 2009 (rebate data were
                          not available for 2010). In fact, Medicaid’s rebate-adjusted payment
                          amounts for brand-name drugs actually declined at the median in 3 of
                          4 years, lagging behind the inflation rate.


                          CONCLUSION
                          Taken as a whole, the results of our study indicate that price increases
                          for brand-name drugs may not necessarily translate to corresponding
                          increases in Medicaid costs. Much like AARP, we found that median
                          increases in WACs for Medicaid brand-name drugs outpaced the
                          inflation rate during the 5-year period under review, as did AMPs and
                          the amounts Medicaid paid to cover pharmacies’ ingredient costs.
                          However, these increases were offset by rebates that manufacturers
                          paid to States. Because of the savings generated by the rebate program,
                          Medicaid’s net costs for brand-name drugs actually increased at a lower
                          rate than other points of comparison, including the inflation rate.




    OEI-03-10-00260       RISING PRICES   FOR   MEDICAID BRAND-NAME DRUGS ARE OFFSET   BY   R E B AT E S   ii
E   X   E C       U T    I   V   E        S     U M      M   A   R Y



                        AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                        RESPONSE
                        CMS expressed its belief that the Medicaid drug rebate program has
                        been effective in helping to offset the increasing cost of drugs in the
                        Medicaid program. CMS also offered two technical comments, both of
                        which reiterated information provided by OIG in the body of the report.
                        We did not make any changes to the report based on CMS’s comments.




OEI-03-10-00260         RISING PRICES   FOR   MEDICAID BRAND-NAME DRUGS ARE OFFSET   BY   R E B AT E S   iii
   T A B L E           O F           C O N T E N T S



         EXECUTIVE SUMMARY .....................................i



         INTRODUCTION ............................................ 1



         F I N D I N G S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
                    Overall, prices and payment amounts for Medicaid brand-name
                    drugs increased at about three times the inflation rate
                    between 2005 and 2010 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

                    Significant increases in prices and payment amounts for
                    brand-name drugs were offset by savings generated from the
                    Medicaid drug rebate program . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12




         C O N C L U S I O N . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
                    Agency Comments and Office of Inspector General Response. . . . 15


         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
                    A: Detailed Methodology for Identifying State Dispensing
                       Fees and Calculating Medicaid Payment Amounts
                       for Ingredients . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

                    B: Additional Information About Changes in Prices and Payment
                       Amounts for the Top 50 Medicaid Brand-Name Drugs . . . . . . 17

                    C: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19


         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
I   N T   R O D U C T I O N
       I N T R O D U C T I O N


                      OBJECTIVE
                      To assess changes in prices for brand-name prescription drugs since
                      2005 and their potential financial impact on the Medicaid program.


                      BACKGROUND
                      According to a series of reports issued by AARP, published prices for the
                      most widely used brand-name prescription drugs have risen
                      significantly since 2002.1 For example, one of the more recent reports
                      found that published prices for widely used brand-name drugs increased
                      by 9.7 percent from April 2009 to March 2010, exceeding both the
                      inflation rate and the rate of increase for the same group of drugs
                      during any of the previous 8 years. 2 Senator Bill Nelson expressed
                      concern over the reported price increases and requested that the Office
                      of Inspector General (OIG) review changes in drug pricing and their
                      effects on Government health care programs, such as Medicaid.
                      OIG has a long history of examining Medicaid payment amounts for
                      prescription drugs, which are typically based on published prices like
                      those examined in AARP’s reports. A number of OIG studies have
                      demonstrated that these published prices, which do not represent actual
                      transaction prices, often exceed actual drug acquisition costs.3 To
                      address Senator Nelson’s concerns, this current study looked beyond the
                      reported increases in published prices by examining changes in
                      transaction-based prices, as well as the financial effect of price changes
                      on the Medicaid program.
                      Medicaid Payments for Prescription Drugs
                      All 50 States and the District of Columbia (hereinafter referred to as
                      States) offer prescription drug coverage under Medicaid. Beneficiaries
                      typically obtain covered drugs from pharmacies, which bill and are



                      1 Reports in AARP’s Rx Watchdog series are available online at http://www.aarp.org.
                      2 L. Purvis and S.W. Schondelmeyer, Rx Watchdog Report: Brand Name Drug Prices

                      Continue to Climb Despite Low General Inflation Rate, May 2010. Accessed at
                      http://www.aarp.org on May 19, 2010.
                      3 OIG, Medicaid Pharmacy – Additional Analyses of the Actual Acquisition Cost of
                      Prescription Drug Products, A-06-02-00041, September 2002; OIG, Deficit Reduction Act of
                      2005: Impact on the Medicaid Federal Upper Limit Program, OEI-03-06-00400, June 2007;
                      OIG, A Comparison of Federal Upper Limit Amounts to Acquisition Costs, Medicare
                      Payment Amounts, and Retail Prices, OEI-03-08-00490, August 2009.



    OEI-03-10-00260   RISING PRICES   FOR   MEDICAID BRAND-NAME DRUGS ARE OFFSET   BY   R E B AT E S         1
I   N T    R O        D   U     C T     I     O     N


                              reimbursed by State Medicaid agencies. 4 In 2005, Medicaid paid in
                              excess of $43 billion for prescription drugs; however, drug expenditures
                              decreased by almost half in the following year, when drug coverage for
                              “dual eligible” beneficiaries (i.e., beneficiaries eligible for both Medicaid
                              and Medicare) shifted from Medicaid to Medicare Part D. Since 2006,
                              Medicaid payments for prescription drugs have remained relatively
                              steady. In 2009, Medicaid drug expenditures totaled approximately
                              $26 billion (not including rebates). Brand-name drugs generally
                              account for about 80 percent of the total dollars reimbursed.
                              Federal regulations require, with certain exceptions, that each State
                              Medicaid agency’s reimbursement for covered outpatient drugs not
                              exceed (in the aggregate) the lower of the estimated acquisition cost
                              plus a reasonable dispensing fee or the provider’s usual and customary
                              charge to the public.5 The Centers for Medicare & Medicaid Services
                              (CMS) allows States the flexibility to define estimated acquisition cost,
                              with most States basing their calculations on the average wholesale
                              prices (AWP) or wholesale acquisition costs (WAC) published in national
                              compendia, adjusted by a certain percentage. 6, 7, 8
                              The AWP is not defined in law or regulation. Rather, it is a list price
                              that is typically either suggested by the manufacturer or calculated
                              based on a markup of another price, such as WAC. 9 Pursuant to the
                              Social Security Act (the Act), the WAC is defined as the manufacturer's
                              list price for the drug or biological to wholesalers or direct purchasers in
                              the United States as reported in wholesale price guides or other
                              publications of drug or biological pricing data. 10 WACs and AWPs do



                              4 Most States require some beneficiary cost sharing for Medicaid prescription drugs. In the
                              fourth quarter of 2010, 40 States required copayments from beneficiaries, ranging from
                              $0.50 to $3 per prescription. One State required certain beneficiaries to pay 2.5 percent of
                              drug costs in the form of coinsurance (up to $300). The remaining 10 States did not require
                              any beneficiary cost sharing for prescription drugs.
                              5 42 CFR § 447.512.
                              6 CMS,Medicaid Prescription Reimbursement Information by State – Quarter Ending
                              December 2010, accessed at www.cms.gov on January 28, 2011.
                              7 States also have flexibility when determining dispensing fees. In the fourth quarter of
                              2010, State dispensing fees for brand-name drugs ranged from $1.50 to $10.64, excluding
                              fees for compounded and mail-order prescriptions and intravenous therapy.
                              8 To limit reimbursement amounts for certain multiple-source drugs, Medicaid also uses the

                              Federal upper limit (FUL) and State maximum allowable cost programs.
                              9 First Data Bank, Inc., NDDF Plus      Documentation, April 2008.
                              10 Section 1847A(c)(6)(B) of the Act.




    OEI-03-10-00260           RISING PRICES   FOR   MEDICAID BRAND-NAME DRUGS ARE OFFSET   BY   R E B AT E S              2
I   N T    R O        D   U     C T     I     O     N


                              not represent actual transaction prices and do not include prompt pay
                              or other discounts, rebates, or price reductions.11
                              The Medicaid Drug Rebate Program
                              For Federal payment to be available for covered outpatient drugs under
                              Medicaid, the Act mandates that drug manufacturers enter into rebate
                              agreements with the Secretary of Health & Human Services and pay
                              quarterly rebates to States. 12, 13 As a result of these rebates, Medicaid
                              recouped approximately one-third of its expenditures for prescription
                              drugs between 2006 and 2009, yielding an average annual savings of
                              about $8 billion.
                              As part of the Medicaid drug rebate program, manufacturers must
                              provide CMS with the average manufacturer price (AMP) for each of
                              their national drug codes (NDC) on a quarterly basis.14 An NDC is a
                              unique 11-digit identifier that represents a specific manufacturer,
                              product, and package size. During the period covered by this review,
                              the AMP was generally defined in statute as the average price paid to
                              the manufacturer for the drug in the United States by wholesalers for
                              drugs distributed to the retail pharmacy class of trade. 15, 16
                              The Medicaid unit rebate amount (URA) for any given drug generally
                              depends on the quarterly AMP submitted by the manufacturer, as well
                              as whether the drug is a brand-name or generic. Manufacturers pay a
                              higher rebate for brand-name drugs than for generic drugs. From 1996
                              to 2009, the URA for a generic drug was 11 percent of the AMP and the
                              basic URA for a brand-name drug was the greater of 15.1 percent of the




                              11 First Data Bank, Inc., NDDF Plus Documentation, April 2008.
                              12 Sections 1927(a)(1) and (b)(1) of the Act.
                              13 Sections 1927(k)(2–3) of the Act define a covered outpatient drug.
                              14 Section 1927(b)(3) of the Act.
                              15 Section 1927(k)(1) of the Act.
                              16 Section 2503 of the Patient Protection and Affordable Care Act (Affordable Care Act),

                              P.L. 111-148, changed the definition of AMP, effective October 2010. However, those
                              changes are not relevant for the purposes of this study.




    OEI-03-10-00260           RISING PRICES   FOR   MEDICAID BRAND-NAME DRUGS ARE OFFSET   BY   R E B AT E S             3
I   N T    R O        D   U     C T     I     O     N


                              AMP or the difference between the AMP and best price. 17, 18, 19 If the
                              AMP for a brand-name drug has risen faster than inflation, then the
                              drug’s manufacturer must pay an additional rebate over and above the
                              basic URA. 20
                              CMS calculates a URA for each NDC and transmits that information to
                              States. States then determine the total quarterly rebates that
                              participating manufacturers owe by multiplying the URA for a specific
                              drug by the number of units of that drug dispensed to beneficiaries in
                              that quarter.


                              METHODOLOGY
                              Scope
                              For this study, we selected all brand-name drugs (i.e., NDCs) used by
                              Medicaid beneficiaries in 2009 and calculated median changes in their
                              WACs, AMPs, and Medicaid payment amounts during the 5-year period
                              between the first quarter of 2005 and the first quarter of 2010. Because
                              data on Medicaid rebates were not available for 2010, we performed the
                              same calculations described above for rebate-adjusted Medicaid




                              17 Section 1927(c) of the Act.
                              18 Pursuant to § 1927(b)(3)(A)(i)(II) of the Act, manufacturers must provide a quarterly

                              “best price” for each of their brand-name drugs. Best price is generally defined by
                              § 1927(c)(1)(C) of the Act as the lowest price available from the manufacturer to any
                              purchaser in the United States, with certain exceptions.
                              19 Effective January 2010, § 2501(a) of the Affordable Care Act increases the URA for

                              brand-name drugs to the greater of 23.1 percent of the AMP or the difference between AMP
                              and best price (with certain exceptions). Section 2501(b) of the Affordable Care Act
                              increases the URA for generic drugs to 13 percent.
                              20 Section 1927(c)(2) of the Act. To determine whether a brand-name drug is subject to the
                              increased rebate amount, CMS compares the reported AMP for a given quarter to its
                              inflation-adjusted baseline AMP. The baseline AMP for a drug is the AMP for the first
                              quarter after the drug’s initial market date. To adjust the baseline AMP for inflation, CMS
                              first divides the baseline AMP by the baseline consumer price index for all urban consumers
                              (consumer price index), which is the consumer price index for the first month prior to the
                              first quarter after the drug’s initial market date. The result of that calculation is then
                              multiplied by the quarterly consumer price index, which is the consumer price index for the
                              month prior to the quarter being calculated. If the reported AMP is greater than the
                              inflation-adjusted baseline AMP, then the difference is added to the URA.




    OEI-03-10-00260           RISING PRICES   FOR   MEDICAID BRAND-NAME DRUGS ARE OFFSET   BY   R E B AT E S               4
I   N T    R O        D   U     C T      I    O     N


                              payment amounts during the 4-year period between the first quarter of
                              2005 and the first quarter of 2009. 21
                              Data Sources and Data Collection
                              We obtained files from CMS containing Medicaid drug utilization data
                              for the 5-year period between 2005 and 2010. These files, which were
                              current as of July 19, 2010, included the total Medicaid expenditures
                              (ingredient costs plus dispensing fees), the total number of
                              prescriptions, and the total number of units dispensed by each State for
                              each NDC in each quarter. 22 In addition, CMS provided us with States’
                              dispensing fees for the first quarter of each year from 2005 to 2010. We
                              also obtained CMS’s AMP data for the first quarter of each year
                              between 2005 and 2010, including the URA for each NDC and whether
                              that NDC represented a brand-name or generic drug. AMP data for the
                              first quarters of 2005 through 2009 were current as of July 13, 2010.
                              AMP data for the first quarter of 2010 were current as of May 10, 2010.
                              As an additional source for determining whether an NDC represents a
                              brand-name or generic drug, we downloaded the Medicaid drug product
                              file for the second quarter of 2010 from CMS’s Web site, which was the
                              most current file available at the time of our analysis. 23
                              We obtained WACs from 2005 through 2010 from First Data Bank’s
                              National Drug Data File. WACs were available monthly rather than
                              quarterly; therefore, we used data from March of each year when
                              tracking this pricing point.
                              To examine price trends for consumer goods in general, we used the
                              consumer price index as calculated by the Bureau of Labor Statistics
                              (BLS). According to BLS, the consumer price index measures “the
                              average change over time in the prices paid by urban consumers for a




                              21 We were unable to obtain URAs for the first quarter of 2010 from CMS because the
                              agency’s systems had not yet been modified to reflect the rebate changes implemented by
                              the Affordable Care Act. In lieu of calculating and sending URAs to States to determine the
                              rebate amounts owed by participating manufacturers, CMS instructed manufacturers to
                              calculate and pay first-quarter 2010 rebates directly to States in accordance with the rebate
                              changes.
                              22 At the time of our analysis, Arizona did not participate in the rebate program and had no

                              reported utilization data. Therefore, Arizona was not included in our review.
                              23 CMS,   Medicaid Drug Rebate Program Drug Product Data, accessed at
                              http://www.cms.gov on August 10, 2010.




    OEI-03-10-00260           RISING PRICES   FOR   MEDICAID BRAND-NAME DRUGS ARE OFFSET   BY   R E B AT E S             5
I   N T    R O        D   U     C T     I     O     N


                              market basket of consumer goods and services.” 24 For the purposes of
                              this study, we used the consumer price index for all items, with
                              adjustments made for seasonal variations. Because the consumer price
                              index is calculated monthly rather than quarterly, we used data from
                              March of each year when tracking this measure.
                              Analysis Variables Defined
                              For the purposes of this report, the points of comparison used to
                              examine pricing and payment trends are defined as follows:
                              WACs. A WAC is a published price that does not represent actual sales
                              transactions and does not account for price concessions. WACs and
                              other published prices, such as AWPs, are often used by States to
                              establish Medicaid payment amounts. 25
                              AMPs. Generally speaking, an AMP is the average price paid by
                              wholesalers for a drug distributed to pharmacies, accounting for certain
                              price concessions. AMPs are based on actual sales transactions and are
                              used to calculate Medicaid URAs.
                              Medicaid payment amounts. A Medicaid payment amount is the average
                              per-unit amount jointly paid by the Federal Government and State
                              Medicaid agencies to cover pharmacies’ ingredient costs for an
                              outpatient prescription drug. Medicaid payment amounts do not
                              include dispensing fees and do not account for rebates collected under
                              the rebate program.
                              Rebate-adjusted Medicaid payment amounts. A rebate-adjusted payment
                              amount is the Medicaid payment amount minus the URA paid to States by
                              manufacturers. The rebate-adjusted payment amount represents the net
                              cost to Medicaid for an outpatient prescription drug.




                              24 BLS, Consumer Price Index Frequently Asked Questions, accessed at http://www.bls.gov
                              on December 8, 2010. According to BLS, the all-urban consumer group represents about
                              87 percent of the total U.S. population and includes “professionals, the self-employed, the
                              poor, the unemployed, and retired people, as well as urban wage earners and clerical
                              workers. Not included in the CPI are the spending patterns of people living in rural
                              nonmetropolitan areas, farm families, people in the Armed Forces, and those in institutions,
                              such as prisons and mental hospitals.”
                              25 We did not include AWPs in our analysis because they have typically been calculated as a

                              markup of WACs and therefore generally have rates of change that are identical to the
                              rates of change in WACs.




    OEI-03-10-00260           RISING PRICES   FOR   MEDICAID BRAND-NAME DRUGS ARE OFFSET   BY   R E B AT E S            6
I   N T    R O        D     U     C T     I     O     N


                                Inflation rate. The inflation rate represents changes in the consumer price
                                index, which reflects spending patterns for almost all residents of urban or
                                metropolitan areas for all goods and services purchased for consumption.
                                Analysis of All Brand-Name Drugs Reimbursed by Medicaid
                                Using the utilization, AMP, and drug product files, we identified
                                6,821 NDCs representing brand-name drugs paid for by Medicaid in
                                2009.26 We calculated changes in prices and payments for these drugs
                                and compared those changes to the inflation rate.
                                Changes in drug prices. To capture trends in prices for brand-name
                                drugs as a whole, we first calculated the total percentage changes in
                                WACs and AMPs for each NDC over the entire 5-year period between
                                the first quarter of 2005 and the first quarter of 2010. We then used
                                first-quarter data in each year to calculate annual percentage changes
                                in WACs and AMPs for each NDC. Using those data, we then
                                calculated median total rates of change and median annual rates of
                                change in WACs and AMPs for the entire group of brand-name drugs
                                over the past 5 years. The number of Medicaid brand-name NDCs with
                                WACs and AMPs in each year is listed in Table 1.

                      Table 1: Number of NDCs Included in OIG’s Analysis of Price Changes
                                                                           Number of Brand-Name NDCs

                                                                                                            With                    With
                                                                                                         Medicaid        Rebate-Adjusted
                          First Quarter                                                                  Payment        Medicaid Payment
                          of the Year                     With AMPs           With WACs                  Amounts                Amounts
                          2005                                  4,168                3,595                     3,582                    3,355

                          2006                                  4,734                4,220                     4,066                    3,816

                          2007                                  5,350                4,832                     4,633                    4,245

                          2008                                  5,932                5,436                     5,219                    4,594

                          2009                                  6,426                5,966                     5,905                    5,225

                          2010                                  6,193                6,227                     5,894                       N/A
                      OIG identified 6,821 NDCs representing brand-name drugs paid for by Medicaid in 2009. For the purposes of our study,
                      Medicaid payment amounts represent the ingredient cost portion only.
                      Source: OIG analysis of AMPs and Medicaid payment amounts from the first quarter of 2005 to the first quarter of 2010 and
                      WACs from March 2005 to March 2010.




                                26 Four States (California, Kansas, Missouri, and New York) had utilization data for only

                                three of the four quarters of 2009; two States (Alabama and Arkansas) had utilization data
                                for only two of the four quarters in 2009; and one State (Wisconsin) had no utilization data
                                for any quarter of 2009.




    OEI-03-10-00260             RISING PRICES   FOR   MEDICAID BRAND-NAME DRUGS ARE OFFSET     BY   R E B AT E S                       7
I   N T    R O        D   U     C T     I     O     N


                              Changes in Medicaid payment amounts. For the first quarter of every
                              year from 2005 to 2010, we calculated an average Medicaid payment
                              amount per unit for each brand-name NDC.27 Because Medicaid’s total
                              expenditure data include dispensing fees, we calculated the average
                              Medicaid payment amount for only the ingredient cost by subtracting
                              the total dispensing fees from the total expenditures for each drug. To
                              calculate total dispensing fees, which vary by State, we multiplied each
                              State’s dispensing fee by the total number of prescriptions dispensed for
                              each drug in that State. We then summarized the ingredient-cost
                              expenditures for each drug across States and divided those total
                              expenditures by the total units. For more details regarding our
                              calculation of ingredient costs and the use of dispensing fees, see
                              Appendix A.
                              We calculated the total percentage change in Medicaid payment
                              amounts for each NDC from the first quarter of 2005 to the first quarter
                              of 2010, as well as the year-to-year percentage changes. Using those
                              data, we then calculated median total rates of change and median
                              annual rates of change in Medicaid payment amounts for the entire
                              group of brand-name drugs during the 5-year period under review.
                              To determine the extent to which any increases in Medicaid payment
                              amounts were offset by increases in Medicaid rebate amounts, we
                              subtracted the URA from the average Medicaid payment amount per
                              unit for each brand-name drug. We then calculated changes in these
                              rebate-adjusted payment amounts. Because rebate amounts were not
                              available for the first quarter of 2010, we were able to calculate median
                              rates of change in rebate-adjusted payment amounts only for the
                              4-year period between 2005 and 2009.
                              The number of Medicaid brand-name NDCs with ingredient costs and
                              rebate-adjusted reimbursement amounts is specified in Table 1.
                              Changes in the consumer price index. To measure changes in the
                              inflation rate, we calculated the total percentage change in the
                              consumer price index over the entire 5-year period between March 2005



                              27 Some States did not have utilization data for the first quarter of every year between 2005

                              and 2010. South Dakota had no utilization data for the first quarter of 2007; Wisconsin had
                              no utilization data for the first quarter of 2009; and Alabama, Arkansas, California, Kansas,
                              Nevada, New York, Rhode Island, South Dakota, and Wisconsin had no utilization data for
                              the first quarter of 2010.




    OEI-03-10-00260           RISING PRICES   FOR   MEDICAID BRAND-NAME DRUGS ARE OFFSET   BY   R E B AT E S             8
I   N T    R O        D   U     C T     I     O     N


                              and March 2010, as well as the total percentage change in the consumer
                              price index over the 4-year period between March 2005 and March 2009.
                              We also calculated year-to-year percentage changes in the consumer
                              price index.
                              Analysis of High-Dollar Brand-Name Drugs Reimbursed by Medicaid
                              To determine whether pricing and payment trends differed for
                              high-dollar Medicaid drugs, we selected the 50 NDCs representing
                              brand-name drugs that had the highest Medicaid expenditures in 2009.
                              We then compared the rates of change in prices and payment amounts
                              for each of the top 50 NDCs (as calculated above) to the rates of change
                              in prices and payment amounts for brand-name drugs as a whole.
                              Limitations
                              Because drugs reimbursed by Medicaid in 2009 may not have been
                              marketed or covered in previous years, prices and Medicaid payment
                              amounts were not available for all brand-name drugs in all 5 years
                              under review. Therefore, the number of drugs in our analysis files
                              tended to decrease as we trended back in time (see Table 1 on
                              page 7).
                              We did not verify the accuracy or completeness of CMS’s data or the
                              accuracy of data in First Data Bank’s National Drug Data File.
                              Furthermore, AMP data submitted by manufacturers are subject to
                              revision. Because manufacturers are generally required to report any
                              revisions to their AMP data within 12 quarters from the quarter in
                              which the data were initially due, some of the AMPs and URAs may
                              have changed since the time of our analysis.
                              We did not evaluate the appropriateness of Medicaid payment amounts
                              for brand-name drugs relative to pharmacy acquisition costs. Also, in
                              calculating the per-unit net cost of drugs to Medicaid, we did not include
                              the additional rebates that individual State Medicaid agencies are
                              permitted to negotiate and collect from manufacturers.
                              Standards
                              This study was conducted in accordance with the Quality Standards for
                              Inspection and Evaluation issued by the Council of the Inspectors
                              General on Integrity and Efficiency.




    OEI-03-10-00260           RISING PRICES   FOR   MEDICAID BRAND-NAME DRUGS ARE OFFSET   BY   R E B AT E S   9
       F I N D I N G S

                                                               For brand-name drugs covered
Overall, prices and payment amounts for Medicaid
                                                               by Medicaid, WACs, AMPs, and
 brand-name drugs increased at about three times
                                                               Medicaid payment amounts rose
           the inflation rate between 2005 and 2010            about three times faster than
                      the inflation rate between 2005 and 2010. Over this 5-year period,
                      WACs for all Medicaid brand-name drugs increased 34 percent at the
                      median, AMPs increased 40 percent at the median, and payment
                      amounts increased 39 percent at the median. During those same
                      5 years, the inflation rate increased only 13 percent.
                      Increases in prices and payment amounts for Medicaid brand-name drugs
                      outpaced the inflation rate in each individual year as well
                      In addition to outpacing overall inflation from 2005 to 2010, median
                      increases in WACs, AMPs, and Medicaid payment amounts outpaced
                      the inflation rate in each of the 5 years under review.
                      WACs for Medicaid brand-name drugs consistently increased about 5 percent per
                      year, while the inflation rate increased no more than 4 percent per year. As
                      shown in Chart 1, the median annual increase in WACs for all Medicaid
                      brand-name drugs remained constant from 2005 to 2010 at a rate of
                      approximately 5 percent. During that same time, the inflation rate did not
                      rise above 4 percent and actually dipped below zero over the 1-year period
                      ending with the first quarter of 2009. From the first quarter of 2009 to the
                      first quarter of 2010, the median increase in WACs was more than double
                      the inflation rate.

                      Chart 1: Medicaid Brand-Name Drugs: Median Annual Increases
                      in WACs Outpaced the Inflation Rate From 2005 to 2010

                                                     8%
                          Median Percentage Change




                                                     6%

                                                     4%

                                                     2%

                                                     0%

                                                     -2%
                                                              2005–        2006–       2007–             2008–          2009–

                                                               2006         2007        2008             2009           2010

                                                                               WAC             Inflation Rate

                      Source: OIG 2010 analysis of WAC and consumer price index data from March 2005 to March 2010.

    OEI-03-10-00260   RISING PRICES                    FOR   MEDICAID BRAND-NAME DRUGS ARE OFFSET   BY   R E B AT E S           10
F   I   N   D I       N G    S


                            AMPs and Medicaid payment amounts fluctuated at roughly the same rate,
                            outpacing the inflation rate in every year, often by a substantial margin. During
                            the 5-year period between 2005 and 2010, the amount Medicaid paid to
                            cover pharmacies’ ingredient costs for brand-name drugs fluctuated at
                            roughly the same rate as manufacturers’ AMPs, which are based on actual
                            sales transactions. As shown in Chart 2, the median annual rate of
                            increase for both points of comparison grew substantially from 2005 to
                            2008 but then slowed from 2008 to 2010.28

                            Chart 2: Medicaid Brand-Name Drugs: Median Annual
                            Increases in AMPs and Medicaid Payment Amounts Outpaced
                            the Inflation Rate From 2005 to 2010
                                                            10%
                                 Median Percentage Change




                                                            8%

                                                            6%

                                                            4%

                                                            2%

                                                            0%

                                                            -2%
                                                                      2005–       2006–        2007–            2008–           2009–

                                                                      2006         2007        2008              2009           2010

                                                                    AMP           Medicaid Payment Amount                      Inflation Rate

                            Source: OIG 2010 analysis of AMP data and Medicaid utilization data from the first quarter of 2005 to the first
                            quarter of 2010 and consumer price index data from March 2005 to March 2010.




                            28 The accelerated median rate of increase in AMP between 2007 and 2008 generally

                            coincides with a number of significant AMP-related changes that took effect as a result of
                            the Deficit Reduction Act of 2005, P.L. 109-171. Such changes included requiring
                            manufacturers to determine AMPs without regard to customary prompt pay discounts and
                            using AMPs to establish FUL amounts for certain multiple-source drugs in the Medicaid
                            program. Regulations implementing these provisions took effect in October 2007; however,
                            on December 19, 2007, the U.S. District Court for the District of Columbia issued a
                            preliminary injunction prohibiting CMS from using AMPs in a way that affects Medicaid
                            reimbursement rates (National Association of Chain Drug Stores, et al., v. U.S. Department
                            of Health & Human Services, et al., Civil Action No. 1:07cv02017). This injunction was
                            vacated in December 2010.




    OEI-03-10-00260         RISING PRICES                     FOR   MEDICAID BRAND-NAME DRUGS ARE OFFSET   BY   R E B AT E S                    11
   F   I   N   D I       N G    S


                               In each year, the median increases in AMPs and Medicaid payment
                               amounts rose faster than the inflation rate for other consumer goods
                               and services. As shown in Chart 2, discrepancies between the inflation
                               rate and the two other points of comparison were greatest between 2006
                               and 2009, when annual median increases in AMPs and Medicaid
                               payment amounts were at least double the increases in the consumer
                               price index. In fact, between 2008 and 2009, AMPs and payment
                               amounts for all Medicaid brand-name drugs each grew about 6 percent
                               at the median while the cost of other common consumer goods and
                               services shrank by almost half a percent.
                               Prices and payment amounts increased at a higher rate for the
                               top 50 Medicaid brand-name drugs than for brand-name drugs as a whole
                               For the 50 Medicaid brand-name drugs with the highest expenditures,
                               total median increases in prices and payment amounts from 2005 to
                               2010 not only outpaced the inflation rate, but also outpaced total
                               median increases in prices and payment amounts for brand-name drugs
                               as a whole.
                               During the 5-year period under review, WACs and AMPs for the top
                               50 brand-name drugs each increased a total of 49 percent at the median
                               and Medicaid payment amounts increased 43 percent at the median
                               (compared to total median increases of 34 percent, 40 percent, and
                               39 percent, respectively, for brand-name drugs as a whole). This
                               pattern held true not only for the top 50 drugs in the aggregate, but also
                               for the majority of individual drugs in the top 50. For additional
                               information about changes in prices and payment amounts for the top
                               50 Medicaid brand-name drugs, see Appendix B.


Significant increases in prices and payment amounts                     We found that when the
                                                                        per-unit payment amounts for
         for brand-name drugs were offset by savings
                                                                        all Medicaid brand-name
   generated from the Medicaid drug rebate program
                                                                        drugs were adjusted to
                               account for rebates paid to States by manufacturers, the per-unit net
                               cost to Medicaid increased at a much lower rate than other points of
                               comparison between 2005 and 2009. 29 While WACs, AMPs, and
                               unadjusted Medicaid payment amounts each increased by roughly


                               29 Because URAs were not available for the first quarter of 2010, we were able to examine

                               the effects of rebates on Medicaid payment amounts only for the period from 2005 to 2009.




       OEI-03-10-00260         RISING PRICES   FOR   MEDICAID BRAND-NAME DRUGS ARE OFFSET   BY   R E B AT E S          12
F   I   N   D I       N G    S


                            30 percent over the 4-year period under review and the consumer price
                            index increased by 10 percent, rebate-adjusted Medicaid payment
                            amounts for all brand-name drugs increased by only 2 percent. In other
                            words, although Medicaid payment amounts for brand-name drugs rose
                            faster at the median than inflation, rebates paid by manufacturers
                            helped protect the program from rising costs.
                            Medicaid’s net costs for all brand-name drugs actually declined at the
                            median in 3 of 4 years, lagging behind the inflation rate
                            In 3 of the 4 years under review, rebate-adjusted payment amounts for
                            Medicaid brand-name drugs actually declined at the median, dropping
                            by as much as 3 percent over 1 year. As shown in Chart 3, decreases in
                            rebate-adjusted amounts during these 3 years lagged behind the
                            inflation rate for other consumer goods and services.

                            Chart 3: Medicaid Brand-Name Drugs: Rebate-Adjusted Medicaid
                            Payment Amounts Declined at the Median in 3 of 4 Years
                                                            8%
                                 Median Percentage Change




                                                            6%

                                                            4%

                                                            2%

                                                            0%

                                                            -2%

                                                            -4%
                                                                       2005–          2006–           2007–                    2008–

                                                                        2006           2007            2008                    2009

                                                                            Rebate-Adjusted Amount                     Inflation Rate

                            Source: OIG 2010 analysis of URAs and Medicaid utilization data from the first quarter of 2005 to the first quarter
                            of 2009 and the consumer price index from March 2005 to March 2009.

                            Overall, changes in Medicaid net costs for the top 50 drugs also lagged
                            behind the inflation rate
                            Trends in Medicaid’s net costs for the top 50 brand-name drugs closely
                            resembled those for brand-name drugs as a whole, with rebates
                            effectively mitigating rising prices and payments. During the 4-year
                            period between 2005 and 2009, rebate-adjusted Medicaid payment
                            amounts for the top 50 drugs increased a total of only 6 percent at the
                            median while the consumer price index increased 10 percent and WACs,


    OEI-03-10-00260         RISING PRICES                     FOR   MEDICAID BRAND-NAME DRUGS ARE OFFSET   BY   R E B AT E S            13
F   I   N   D I       N G     S


                            AMPs, and unadjusted Medicaid payment amounts each increased by
                            more than a third.
                            This pattern was evident not only for the top 50 drugs in the aggregate,
                            but also for the majority of individual drugs with the highest
                            expenditures. We were able to calculate rebate-adjusted payment
                            amounts for 35 high-dollar drugs for the entire period from 2005 to
                            2009. For many of these drugs, Medicaid net costs either increased at a
                            lower rate than prices, unadjusted payment amounts, and inflation
                            (15 of 35); or actually decreased (11 of 35). For example, the
                            rebate-adjusted payment amount for one high-dollar drug decreased by
                            31 percent over 4 years, while the WAC, AMP, and unadjusted payment
                            amount increased between 27 and 40 percent (as shown in Table 2). 30

             Table 2: Changes in Pricing and Payment Amounts for One
             High-Dollar Brand-Name Drug Between 2005 and 2009

                                                             First-Quarter          First-Quarter
                                                                     2005                   2009                      Dollar      Percentage
               Point of Comparison                          Price per Unit         Price per Unit                Difference        Difference
               WAC                                                    $3.96                   $5.01                   $1.05                27%

               AMP                                                    $3.28                   $4.39                   $1.10                34%

               Medicaid Payment Amount                                $3.68                   $5.17                   $1.48                40%

               Rebate-Adjusted Payment Amount                         $2.97                   $2.07                  -$0.91               -31%
             The dollar differences between per-unit AMPs, Medicaid payment amounts, and rebate-adjusted payment amounts are off by
             $0.01 because of rounding.
             Source: OIG 2010 analysis of AMP data and Medicaid utilization data from the first quarter of 2005 to the first quarter of 2009 and
             WAC data from March 2005 to March 2009.


                            For the remaining 9 of the 35 high-dollar drugs, rebate-adjusted
                            payment amounts increased faster than inflation. However, net costs
                            for all but three of these increased at a lower rate than prices and
                            unadjusted payment amounts.




                            30 Section 1927(b)(3)(D) of the Act broadly guarantees the confidentiality of AMP data
                            reported by manufacturers (with certain limited exceptions); therefore, we cannot disclose
                            the names of the brand-name drugs in conjunction with AMP data.




    OEI-03-10-00260         RISING PRICES    FOR   MEDICAID BRAND-NAME DRUGS ARE OFFSET          BY   R E B AT E S                      14
   C O N C L U S I O N

                   A series of reports issued by AARP found that average increases in
                  WACs for the most widely used brand-name prescription drugs far
                  surpassed the price increases for other consumer goods and services.
                  Given that Medicaid drug reimbursement amounts are typically based
                  on published prices, such as WACs, AARP’s findings raised concerns
                  about the effects of the reported price increases on the Medicaid
                  program.
                  Taken as a whole, the results of our study indicate that price increases
                  for brand-name drugs may not necessarily translate to corresponding
                  increases in Medicaid costs. Much like AARP, we found that median
                  increases in WACs for Medicaid brand-name drugs outpaced the
                  inflation rate during the 5-year period under review, as did AMPs and
                  the amounts Medicaid paid to cover pharmacies’ ingredient costs.
                  However, these increases were offset by rebates that manufacturers
                  paid to States. Because of the savings generated by the rebate program,
                  Medicaid’s net costs for brand-name drugs actually increased at a lower
                  rate than other points of comparison, including the inflation rate.
                  Furthermore, States may have been deriving even greater benefit from
                  the rebate program since January 2010, when the rebate percentage for
                  brand-name drugs increased from 15.1 percent to 23.1 percent.


                  AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                  RESPONSE
                  CMS expressed its belief that the Medicaid drug rebate program has
                  been effective in helping to offset the increasing cost of drugs in the
                  Medicaid program. CMS also offered two technical comments, both of
                  which reiterated information provided by OIG in the body of the report.
                  We did not make any changes to the report based on CMS’s comments.
                  For the full text of CMS’s comments, see Appendix C.




OEI-03-10-00260   RISING PRICES   FOR   MEDICAID BRAND-NAME DRUGS ARE OFFSET   BY   R E B AT E S   15
   A P P E N D I X                       ~      A
                                                 B

                  Detailed Methodology for Identifying State Dispensing Fees and
                  Calculating Medicaid Payment Amounts for Ingredients
                  Generally speaking, State Medicaid agencies reimburse pharmacies for
                  the ingredient costs of prescription drugs and for the costs of dispensing
                  those drugs to beneficiaries. However, the Centers for Medicare
                  & Medicaid Services’ Medicaid utilization data do not provide separate
                  expenditure data for ingredient costs and dispensing fees; rather, they
                  provide only the total Medicaid expenditures for each drug in each
                  State. To identify trends in ingredient costs for Medicaid brand-name
                  drugs over the 5-year period between the first quarter of 2005 and the
                  first quarter of 2010, it was necessary to subtract the total dispensing
                  fees from the total expenditures for each national drug code (NDC)
                  included in our study.
                  Dispensing fees vary by State, and each State may have different
                  dispensing fees for different types of drugs dispensed in different types
                  of settings. For the purposes of our study, we selected only those
                  dispensing fees provided to outpatient, for-profit retail, and independent
                  pharmacies. Dispensing fees provided to nursing or long-term-care
                  facilities were excluded from our analysis, as were dispensing fees for
                  compounded drugs, unit dose drugs, and intravenous therapy. Six
                  States (Alaska, Nebraska, Tennessee, Texas, Utah, and Washington)
                  had dispensing fees that could not easily be determined; therefore,
                  utilization data from these States were excluded from our analysis.
                  Dispensing fees for the remaining States ranged from $1.75 to $7.25.
                  For the first quarter of each year from 2005 to 2010, we calculated total
                  dispensing fees for each NDC in each State by multiplying the State’s
                  dispensing fee by the total number of prescriptions dispensed in that
                  State. To identify total ingredient-cost expenditures for each NDC, we
                  then subtracted the total dispensing fees from the total expenditures.
                  We excluded any NDCs for which the ingredient cost was negative
                  (assuming that this was the result of problematic expenditures data).
                  To calculate an average Medicaid payment amount per unit for each
                  brand-name NDC in our study, we then summarized the ingredient-cost
                  expenditures for each drug across States and divided those total
                  expenditures by the total units.




OEI-03-10-00260   RISING PRICES   FOR   MEDICAID BRAND-NAME DRUGS ARE OFFSET   BY   R E B AT E S   16
   A P P E N D I X                       ~      B

                  Additional Information About Changes in Prices and Payment
                  Amounts for the Top 50 Medicaid Brand-Name Drugs
                  For the top 50 Medicaid brand-name drugs, median annual increases in
                  prices and unadjusted payment amounts not only outpaced the inflation
                  rate, but also generally outpaced annual increases in wholesale
                  acquisition costs (WAC), average manufacturer prices (AMP), and
                  Medicaid payment amounts for brand-name drugs as a whole.
                  As shown in Chart B-1a, median annual changes in WACs for the
                  top 50 drugs trended upward from 2005 to 2010, increasing from a low
                  of approximately 6 percent in the first 2 years to a high of over
                  10 percent in the fifth year. In contrast, median changes in WACs for
                  brand-name drugs as a whole remained relatively constant at about
                  5 percent, so that by 2010 the median increase in WACs for drugs in the
                  top 50 was double that for brand-name drugs as a whole.
                  AMPs also typically increased at a higher rate for drugs in the
                  top 50, particularly during the last 2 years under review. Between 2008
                  and 2010, median rates of increase for AMPs rose steadily for high-
                  dollar drugs but declined steadily for brand-name drugs as a whole. As
                  shown in Chart B-1b, AMPs for the top 50 drugs increased 11 percent at
                  the median by 2010, whereas AMPs for all brand-name drugs increased
                  only about 5 percent.
                  Trends in median payment amounts for high-dollar drugs somewhat
                  resembled those for brand-name drugs as a whole, with median rates of
                  increase growing from 2005 to 2009 and declining from 2009 to 2010.
                  However, as shown in Chart B-1c, median changes in unadjusted
                  payment amounts were greater for the top 50 drugs, outpacing those for
                  all brand-name drugs in 4 of the 5 years under review.




OEI-03-10-00260   RISING PRICES   FOR   MEDICAID BRAND-NAME DRUGS ARE OFFSET   BY   R E B AT E S   17
A   P P     E   N     D I     X                               ~          B


                  Chart B-1. Median Increases in WACs, AMPs, and Medicaid
                  Payment Amounts Were Generally Greater for High-Dollar Drugs
                                  a. WACs

                                                              12.0%




                                   Median Percentage Change
                                                              10.0%

                                                                  8.0%
                                                                                                                                    All
                                                                  6.0%
                                                                                                                                    Top 50
                                                                  4.0%

                                                                  2.0%

                                                                  0.0%
                                                                             2005–   2006–   2007–   2008–      2009–

                                                                             2006    2007    2008     2009       2010


                                  b. AMPs

                                                              12.0%
                                   Median Percentage Change




                                                              10.0%

                                                                  8.0%
                                                                                                                                    All
                                                                  6.0%
                                                                                                                                    Top 50
                                                                  4.0%

                                                                  2.0%

                                                                  0.0%
                                                                             2005–   2006–   2007–   2008–      2009–

                                                                             2006    2007    2008     2009       2010



                                  c. Medicaid Payment Amounts

                                                              12.0%
                                   Median Percentage Change




                                                              10.0%

                                                                  8.0%
                                                                                                                                    All
                                                                  6.0%
                                                                                                                                    Top 50
                                                                  4.0%

                                                                  2.0%

                                                                  0.0%
                                                                             2005–   2006–   2007–   2008–      2009–

                                                                             2006    2007    2008     2009       2010


                  Source: Office of Inspector General 2010 analysis of WACs, AMP, and Medicaid utilization data from 2005 to 2010.
    OEI-03-10-00260         RISING PRICES                          FOR   MEDICAID BRAND-NAME DRUGS ARE OFFSET   BY   R E B AT E S            18
     A P PEN D                      x               c
                                         Agency Comments



(~~ 	    DEPARTMENT OF HEALTH & HUMAN SERVICES                                    Centers for Medicare & Medioaid Services


,S'r-                                                                             Administrator
                                                                                  Washinglon. DC 20201




       DATE:
                       JUN 2 9 2011

       TO: 	          Daniel R. Levinson 

                      Inspector General 


       FROM: 	        Donald M. Berwick, M:D. 
    /S/
                      Administrator 


       SUBJECT: Office of Inspector General (OlG) Draft Report: Medicaid Brand-Name Drugs:
       Rising Prices are Offset by Manufacturer Rebates (OEI-03-IO-00260)

       Thank you for the opportunity to review and comment on the OlG Draft Report entitled,
       "Medicaid Brand-Name Drugs: Rising Prices are Offset by Manufacturer Rebates," (OEI-03-10­
       00260). This report assesses changes in prices for brand-name prescription drugs since 2005 and
       their potential financial impact on the Medicaid program. The basis for the report was a series of
       reports issued by the American Association of Retired Persons (AARP) indicating that published
       prices for the most widely used brand-name prescription drugs have risen Significantly since
       2002, substantially outpacing inflation. To address Congressional concerns, this study looked
       beyond published prices to transaction based prices and Medicaid payments.


        While the OlG confirmed the AARP findings that price and payment amount increases did
        exceed the rate of inflation, the OIG also found that price increases for brand-name drugs do not
        necessarily translate to corresponding increases in costs for the Medicaid program. The OlG
        stated that the price and payment increases were offset by the Medicaid drug rebate amounts that
        manufacturers paid to States.

        Specifically, the OIG found that overall, prices and payment amounts for Medicaid brand­
        name drugs increased at about three times the general rate of inflation between 2005 and
        2010. Over this 5-year period, the OIG stated that Wholesale Acquisition Cost (WAC),
        Average Manufacturer Price (AMP), and Medicaid payment amounts increased between 34
        percent and 40 percent at the median, while the general inflation rate increased only 13
        percent. In addition to outpacing the overall inflation rate, the OlG stated that these
        amounts outpaced the general inflation rate in each of the 5 years under review. The 01G
        also reported that the total median increases in prices and payment amounts for the 50
        Medicaid brand-name drugs with the .highest expenditures also outpaced general inflation
        rate as well as outpaced total increases in prices and payment amounts for brand-name drugs
        as a whole.

        However, the OIG noted that these increases in prices and payment amounts for brand-name
        drugs were offset by savings generated from the Medicaid. Drug Rebate Program. When the per­




 OEI·03·10-00260        RISING PRICES FOR MEDICAID BRAND-NAME DRUGS ARE OFFSET BY REBATES                                    19
A   P P     E   N     D I    X       ~        C




    OEI-03-10-00260         RISING PRICES   FOR   MEDICAID BRAND-NAME DRUGS ARE OFFSET   BY   R E B AT E S   20
A   P P     E   N     D I    X       ~        C




    OEI-03-10-00260         RISING PRICES   FOR   MEDICAID BRAND-NAME DRUGS ARE OFFSET   BY   R E B AT E S   21
   A C K N O W L E D G M E N T S

                  This report was prepared under the direction of Robert A. Vito, Regional
                  Inspector General for Evaluation and Inspections in the Philadelphia
                  regional office, and David Tawes, Director of the Medicare and Medicaid
                  Prescription Drug Unit.
                  Lauren McNulty served as the team leader for this study. Central office
                  staff who contributed include Kevin Manley.




OEI-03-10-00260   RISING PRICES   FOR   MEDICAID BRAND-NAME DRUGS ARE OFFSET   BY   R E B AT E S   22
                 Office of Inspector General
                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health & Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
